January 30, 2009

RUSSELL A. SYKES
MANAGER, SURFACE TRANSPORTATION CATEGORY MANAGEMENT CENTER

ROBERT A. BORRIS
MANAGER, CAPITAL METRO DISTRIBUTION NETWORK OFFICE

SUBJECT: Audit Report – Capital Metro Distribution Network Office
         (Report Number FT-AR-09-008)

This report presents issues concerning Transportation Contract Support System (TCSS)
access privileges and Rail Management Information System (RMIS) service claim
payments at the Capital Metro Distribution Network Office (DNO). We identified these
issues during our audit of the fiscal year (FY) 2008 Postal Service financial statements –
St. Louis Information Technology and Accounting Service Center (IT/ASC) (Project
Number 08BM001FT003). This audit addresses financial risk. See Appendix A for
additional information about this audit.

Conclusion

Highway transportation payment information entered into TCSS at the Capital Metro
DNO was properly supported, authorized, and accurate. However, internal controls
over segregation of duties within TCSS needed improvement. In addition, although
internal controls over RMIS service claims processed manually at the Capital Metro
DNO improved from the previous audit, improvement is still needed to ensure RMIS
service claim payments made to rail carriers are properly authorized and recorded and
transactions entered into RMIS are accurate.1

Transportation Contract Support System Access Privileges

Key duties and responsibilities related to contract administration and TCSS
administration were not appropriately separated for an individual at the Capital Metro
DNO. Xxxxxxxxxxxx, xx x xxxxxxxxxxx xxxxxxx XXXX, xxxx xxxxxxxxxx xxxxxxxx
xxxxxxxxx xxxxxx XXXX, xxxxx xxxxxx xxxxxxxxxx xx xxxx xxxxxxxxx xxx xxxxxx
xxxxxxxx. Xxx xxxxxxxxxx xx xxxx xxxx xx xxx xxxxxxxxxxxx xxxxx, xxxxx xxx
xxxxxxxxxxxxxx xxxxxx xxxxx xxxxxxxxxx xx xxxx xx xxx xxxx xxxx xxxx xxx xxx
xxxxxx,xxxxxxx, xxx xxxxxx xxxx xxxxxx xxx xxxxxxxxx.


1
 Previously identified control deficiencies pertaining to the preparation of service claim supporting document
packages and the retention of this documentation for 2 years were corrected, in part. However, management did not
effectively implement related recommendations from our prior year audit report as noted in the finding.
Capital Metro Distribution Network Office                                                         FT-AR-09-008



Xxxx xxxxx xxxxxxxx xxxxxxx,xxxxxx xx xxxxxxxx xxx xx xx xxx xxxxxxx xxxxx xxx, xxx
xxxxxxxxxx xxx xxxx xx xxx xxxxxxxxxxxx xxxx xxxxxxxxxxx xxxx. Xxx xx xxx
xxxxxxxxx xxxxxxxxx xx xxx xxxxxx, xxx xxxxxxxxx xxx xxxx xx xxxxxx xxxxxxxxxxxxxx
xx xxxx xx xxx xxxx xxxx xxxx.

Best practices indicate that management needs to divide or segregate key duties and
responsibilities among different people to reduce the risk of error or fraud. No one
individual should control or have the ability to control all key aspects of a transaction or
event.2 While TCSS was designed with controls to prevent any one individual from
entering and approving payments, having full access to the system creates the potential
to circumvent these controls.

While no inappropriate payments were noted during our review, the CO’s ability to
perform both CO and system administrative duties increases the Postal Service’s risk of
inappropriate payments being entered and passed through TCSS.

As a result of our audit, management completed and submitted business requirements
for limiting access to TCSS. Management expects to implement these requirements
after the next system upgrade, scheduled to be completed in Quarter 2, FY 2009.

We recommend the Manager, Surface Transportation Category Management Center:

1. Review access privileges for personnel at the Capital Metro Distribution Network
   Office and revoke those that are not appropriate to ensure adequate segregation of
   duties exists within Transportation Contract Support System.

Management’s Comments

Management agreed with the intent of the recommendation and submitted business
requirements to establish a new User Profile group that restricts user profile
maintenance privileges to the Manager, Surface Transportation Category Management
Center (CMC), and the highway team leader within that CMC. Only users in this group
will be able to create, activate, deactivate, or modify user profiles in TCSS. The new
User Profile group will strengthen accountability and enhance controls over the creation
and modification of TCSS users and their profiles. Based on the implementation
schedule, management expects this change to be made to TCSS no later than
Quarter 3, FY 2009. See Appendix B for management’s comments in their entirety.




2
 Government Accountability Office, Standards for Internal Control in the Federal Government, GAO/AIMD-00-21.3.1,
page 14, paragraph 4, Segregation of Duties, dated November 1, 1999.




                                                       2
Capital Metro Distribution Network Office                                                               FT-AR-09-008



Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to this recommendation, and the corrective action should resolve
the issue identified in the report.

Rail Management Information System Service Claim Payments

RMIS service claim payments manually processed and paid were not adequately
supported3 in accordance with Postal Service policy. Specifically, of the 221 paid RMIS
service claim packages reviewed and valued at $415,200:4

    o None of the packages included the required standard request coversheet.5

    o None of the packages included evidence of the RMIS contract master
      rate verification.6

    o 141 packages, totaling $251,381, did not have a copy of a signed delivery receipt
      or a computerized arrival record from the Postal Service destination facility
      verifying receipt.

    o 15 packages, totaling $27,954, did not have Postal Service (PS) Form 5186, Mail
      Movement Routing Instructions.

Postal Service policy requires DNO personnel to prepare a service claim supporting
documentation package, which includes the standard request coversheet, print screens
from RMIS showing contract master rate, verification of the carrier’s arrival at the
destination, and a copy of PS Form 5186.7

This occurred because xxx xxxxxx responsible for investigating and compiling RMIS
service claim supporting documentation packages was not aware of the requirement to
include this support. Although the information was not available in the package, xxx
xxxxxxxxxx informed us he verified the master contract rate information in RMIS prior to
payment. In addition, xxx xxxxxxxxxx responsible for review of the service claim
packages and subsequent approval of the payments in RMIS was not fully aware of the
supporting documentation requirements.


3
  We acknowledge these payments may have been proper. However, because specific source documents were not
included in the payment package as required, we were not able to validate them at the time of the audit.
4
  These payments were processed from October 1, 2007, through June 18, 2008.
5
  The standard cover sheet includes supplier contact information, date of dispatch or move, origin/destination Postal
Service facilities, contract segment number, Postal Service contract segment rate or requested dollar amount, and
waybill or reference number.
6
  The service claim payment package must include “Screen print of RMIS contract master rate.”
7
  Management Instruction PO-540-2007-1, Surface Intermodal/Rail Payments Manual Processing, dated March 1,
2007.




                                                          3
Capital Metro Distribution Network Office                                                            FT-AR-09-008



When Postal Service personnel do not fully investigate and compile supporting
documents for service claim packages and supervisors do not know supporting
documentation requirements, the Postal Service increases its risk of making erroneous,
duplicate, or fraudulent payments.

We recommend the Manager, Capital Metro Distribution Network Office:

2. Reiterate the requirement to prepare supporting documentation packages to
   personnel responsible for investigating, compiling, and entering service claim
   information into the Rail Management Information System.

3. Communicate supporting documentation requirements to personnel authorized to
   review and approve Rail Management Information System service claim supporting
   documentation packages.

4. Perform a review of all fiscal year 2008 service claim packages for the proper
   supporting documents, reconcile the claim payment with the Rail Management
   Information System master contract rate to ensure the payment was appropriate,
   and take collection action, as needed.

5. Conduct regular reviews of Rail Management Information System service claim
   packages and payments to ensure compliance with Postal Service policy, and
   maintain a written copy of the results of review, personnel who conducted the
   review, and date of the review in local files.

We will report the $415,200 as unrecoverable unsupported questioned costs8 in our
Semiannual Report to Congress.

Management’s Comments

Management agreed with our finding, recommendations, and unsupported questioned
costs of $415,200. They reiterated the requirements for supporting documentation to
staff members, including the network specialist and the budget analyst, and mandated
strict compliance. Management also committed to reviewing payment files and, as a
result of an ongoing review of FY 2008 rail payments, has generated adjusted payment
documents to recover $1,919 that the Postal Service had undercharged contractors as
a result of incorrect rate applications. The target date for completion of this review is
not later than January 31, 2009. Further, management will conduct biannual reviews of
RMIS service claim packages and payments at the end of Postal Service Quarters 2
and 4, beginning April 1, 2009, and has developed a form to document review results,
the employees involved, and the date of the review. Supporting documentation will also
be attached to this form.


8
 Unrecoverable costs that are unnecessary, unreasonable, or an alleged violation of law or regulation. These costs
are also not supported by adequate documentation.




                                                         4
Capital Metro Distribution Network Office                                  FT-AR-09-008



Evaluation of Management’s Comments

The OIG considers management’s comments responsive to these recommendations,
and the corrective actions should resolve the issues identified in the report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:     H. Glen Walker
        William P. Galligan, Jr.
        Susan M Brownell
        Lynn Malcolm
        Susan A. Witt
        Dwight D. Young
        Jeffery A. Becker
        Vincent H. DeVito, Jr.
        Katherine S. Banks




                                            5
Capital Metro Distribution Network Office                                                          FT-AR-09-008



                           APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Highway transportation contracts and payments are processed through TCSS at the
DNO. Transportation specialists at the DNOs negotiate and input contracts into TCSS,
which COs then approve within the system. Once contracts are approved, the system
can process both automatic and manual payments. Personnel must request access to
TCSS through the eAccess System to obtain headquarters customer approval. Access
levels within TCSS are based on assigned user groups. Individuals in the headquarters
group have access to the maintain users profile function within TCSS and can create,
modify, and delete users.

RMIS is a computerized system that certifies rail payments and controls trailer
movement. The system operates in real-time mode; therefore, its accuracy depends on
the employees responsible for collecting and inputting the required data. Origin DNOs
process all RMIS service claims for payment. While RMIS processes most service
payments automatically, origin DNOs process RMIS service claims manually when the
origin point uses erroneous routing instructions; when origin, intermediate point, or
destination Postal Service facility personnel enter erroneous data; or when an
emergency routing is created.9

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine whether highway payment information
entered into TCSS was properly supported, authorized, and accurate. We also
conducted prior year audit follow up10 to determine whether internal controls over RMIS
were adequate to ensure employees accurately and timely recorded transactions and
management properly authorized service claim payments made to rail transportation
carriers. We selected the Capital Metro DNO based on the volume, dollar value of
payments, and prior audit results.

To accomplish our objectives, we traced highway payment data, processed through
TCSS and maintained in the Accounts Payable Excellence (APEX) System, to highway
payment source documents. We selected a random sample of 120 out of a total of
10,381 transactions for highway payments from October 1, 2007, through June 24,
2008. Also, as part of our review of internal controls, we reviewed access to TCSS for
personnel at the Capital Metro DNO.

Further, we extracted data for all 221 RMIS manual service claim payments, valued at
$415,200 and processed from October 1, 2007, through June 18, 2008, at the Capital

9
  Emergency routing is used to meet unusual needs that interrupt normal transportation services, such as a
catastrophic event or a labor dispute.
10
   Rail Management Information System Claim Payments - Capital Metro Distribution Networks Office (Report
Number FT-AR-07-008, dated March 5, 2007).




                                                        6
  Capital Metro Distribution Network Office                                          FT-AR-09-008



  Metro DNO. We traced these payments to service claim supporting documentation
  packages maintained at the Capital Metro DNO.

  We conducted this audit from May 2008 through January 2009 in accordance with
  generally accepted government auditing standards and included such tests of internal
  controls as we considered necessary under the circumstances. Those standards
  require that we plan and perform the audit to obtain sufficient, appropriate evidence to
  provide a reasonable basis for our findings and conclusions based on our audit
  objectives. We believe the evidence obtained provides a reasonable basis for our
  findings and conclusions based on our audit objectives. We discussed our observations
  and conclusions with management on December 15, 2008, and included their
  comments where appropriate. We relied on computer-generated data extracted from
  APEX and RMIS. We performed specific internal control and transaction tests on these
  applications to assess the reliability of the data. For example, we traced selected
  information on payment data to supporting source documents such as supplier invoices.
  We concluded the data were reliable for our purposes.

  PRIOR AUDIT COVERAGE

                                               Final
                                Report        Report    Monetary
       Report Title            Number          Date      Impact              Report Results
Fiscal Year 2005 Postal      FT-AR-06-015     4/21/06   $45,559    Seattle Branch DNO personnel did
Service Financial                                                  not always obtain appropriate
Statements Audit – St.                                             supporting documentation for
Louis Information                                                  service claim payments. We have
Technology and                                                     closed related recommendations.
Accounting Service
Center
Rail Management              FT-AR-07-008     3/5/07    $654,753   Capital Metro DNO personnel did
Information System                                                 not always maintain supporting
Service Claim Payments                                             documentation for RMIS service
– Capital Metro                                                    claim payments as required by
Distribution Networks                                              Postal Service policy. We have
Office                                                             closed recommendations related to
                                                                   record retention and revising and
                                                                   communicating policy.




                                                   7
Capital Metro Distribution Network Office                   FT-AR-09-008



                        APPENDIX B: MANAGEMENT’S COMMENTS




                                            8
Capital Metro Distribution Network Office       FT-AR-09-008




                                            9
Capital Metro Distribution Network Office        FT-AR-09-008




                                            10
Capital Metro Distribution Network Office        FT-AR-09-008




                                            11
